WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

Brett Emmett Lloyd

20-734
John Gerhard et al
v.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
□ Please enter my appearance as Counsel of Record for all respondents.
□ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

City of Beaverton and Jeffrey Warner
□ I am a member of the Bar of the Supreme Court of the United States.
□ I am not presently a member of the Bar of this Court.
will be ﬁled by a Bar member.
Signature

Should a response be requested, the response

/s/ Janet M. Schroer

December 3, 2020
Janet M. Schroer
(Type or print) Name
Date:

□ Mr.

□ Ms.

□ Mrs.

□ Miss

Hart Wagner, LLP
1000 SW Broadway Suite 2000
Address
Portland,OR
97205
City & State
Zip
503-222-4499
jms@hartwagner.com
Phone
Email
Firm

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC:

Brett Emmett Lloyd, petitioner pro se, Kristen Lynn Tranetzki, attorney for co-def

